HHS/OIG-AUDIT--Medicare Payments Made to Group Health Cooperative of Puget
Sound for Beneficiaries Classified As Having End Stage Renal Disease (A-10-96-00001)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Payments Made to Group Health Cooperative of Puget
Sound for Beneficiaries Classified As Having End Stage Renal Disease,"
(A-10-96-00001)
April 18, 1997
Complete Text of Report is available in PDF format
(648K). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our audit of enhanced Medicare payments
made to Group Health Cooperative of Puget Sound (Group Health) for beneficiaries
classified as having end stage renal disease (ESRD). Our audit included Medicare
payments made during the period March 1992 through April 1996.
Group Health is a managed care organization and has been providing services
to Medicare beneficiaries under contract with the Health Care Financing Administration
(HCFA) since January 1, 1989. Group Health is paid a fixed monthly payment for
each enrolled Medicare beneficiary. Enhanced payments are made on behalf of
certain high-cost categories of beneficiaries, such as those having ESRD. However,
when a beneficiary's ESRD status changes, such as after a 3-year time period
following a successful transplant, the enhanced payments are to be discontinued.
We identified 40 beneficiaries enrolled with Group Health between March 1992
and April 1996 who were inappropriately classified as having ESRD status. As
a result, Group Health received Medicare overpayments of $2,763,498 for that
period.
In our audit, we determined that Group Health was providing timely notification
to HCFA when the ESRD status of beneficiaries changed. However, because of a
HCFA computer system deficiency, the ESRD designation for beneficiaries was
not changed and the enhanced payments continued. We have been advised by HCFA
officials that, in August 1996, they began implementing system enhancements
to address the problem of incorrect ESRD status.
We are recommending that Group Health refund the $2,763,498 in Medicare overpayments.
We are also recommending that Group Health review the ESRD status of Medicare
enrollees subsequent to the period covered by our audit, and refund overpayments
received for beneficiaries inappropriately classified as having ESRD during
this period.
In a written response to the draft report dated January 9, 1997, Group Health
acknowledged that overpayments were received, but did not agree with the beginning
date of March 1, 1992 for determining the amount that should be reimbursed to
the Federal Government. Group Health stated that a beginning date of September
1, 1993 was appropriate based on instructions received from HCFA. By use of
this beginning date, and including the period subsequent to our audit period,
Group Health determined that the amount to be repaid was $1,966,502. The response
stated that reimbursement of the overpayment was begun on October 1, 1996.
We believe that the beginning date of March 1, 1992 for determining amounts
to be reimbursed is appropriate in light of the circumstances involving the
overpayments, and related policy decisions that are applied to fee-for-service
Medicare providers. In a separate report, we are recommending to HCFA that it
recover all overpayments that have occurred since at least 1992 that resulted
from the computer system deficiency.